                             CLOSEOUT FOR M-94040016

University), informed OIG a b ~ u t ~ ~ t i of.
                                            o nmisconduct
                                                s         in science. The allegations were




The co-PI was not considered a subject by the
                the Department, alleged that the subject in his NSF proposal had: 1) plagiarized
three figures; 2) plagiarized the two phrases-               J  and
                                                                -   1
3) misrepresented his Ph.D. degree award date; and 4) misappropriated and misrepresented ideas
when he presented work done by another scientist as his own. The University, in adherence to
NSF's Misconduct in Science and Engineering regulation (C.F.R. $689), informed OIG that it
had initiated a formal investigation into these allegations.

The University provided OIG with copies of its inquiry and investigation reports as well as other
relevant documents, such as interviews and an annotated copy of the subject's NSF proposal.
As a part of OIG's evaluation of the University's investigation report, we reviewed all the
subject's available NSF proposal jackets.

Allegation # 1: The subject 's proposal contained three plagiarized figures. The investigation
committee's report noted that two of the figures in the subject's proposal were properly
attributed, while a third one was not. The Committee observed that the unattributed figure came
from the same reference as the two attributed figures. The Committee determined that, although
it would have been more appropriate if the subject had attributed the third figure in his,proposal,
the fact that he included the reference in his proposal from which all three or'?he figures
originated and that he cited two of them showed that he had not intended to "hide" the source
of the third figure. In addition, the committee determined that the figures used in the proposal
were "standard representations of generic information that [did] not require specific citation."
The Committee concluded that there was no need to revise the NSF application relative to these
figures and that no misconduct in science had occurred. OIG agreed with the Committee that
the one unattributed figure was a standard generic portrayal of information that did not require
citation. We concluded that there was no substance to the allegation that the subject had
plagiarized three figures in his proposal.

Allegation #2: The subject plagiarized two phrases throughout his proposal. The Committee
reviewed articles in which these two phrases appeared without attribution and determined that
the two phrases were "standard representations of generic information that [did] not require

                                           Page 1 of 3                                    M94- 16
                              CLOSEOUT FOR M-94040016

specific citation." The Committee found no evidence of plagiarism with respect to these
phrases. OIG concurred with the Committee's conclusion.

Allegation #3: The subject misrepresented his Ph.D. degree award date in his NSF proposal.
The Committee reviewed the events surrounding the subject's submission of his proposal. They
determined that when the subject discovered that he had made an error with his Ph.D. award
date in his cumculum vitae (c.v.) with his proposal, he submitted a correction to NSF. The
corrective action occurred about four weeks after he submitted the proposal, but prior to the
University's receipt of any allegations of misconduct in science related to the subject's proposal.
The Committee concluded that the subject had not intentionally misrepresented his Ph.D. degree
award date with his NSF proposal and that "no scholarly misconduct" had occurred.

OIG reviewed all of the subject's available proposal jackets. We determined that the facts as
presented by the Committee were correct and, in addition, that there was no evidence that the
subject misrepresented his Ph.D. degree award date in any other NSF proposal submission. OIG
concurred with the Committee that there was no substance to the allegation that the subject had
intentionally misrepresented his Ph.D. degree award date in his NSF proposal.

Allegation #4: The subject misappropriated and misrepresented work done by another scientist
as his own. The subject's proposal contained a one-sentence statement about his research
accomplishments in a specific area. The allegation was that the subject had not done research
in the specified area but that his graduate student had. Hence, he was misappropriating work
accomplished by his graduate student and misrepresenting his own participation and
accomplishments in this area of study. With respect to this allegation, the Committee
determined that, "[slince no specific research results or ideas were reported and since the area
of research is not proprietary to a specific individual," there was no misappropriation of ideas.
With respect to the alleged misrepresentation by the subject of the work of others as his own,
the Committee determined that the one sentence statement in the subject's prop* was "so
general and vague that even minimal research activity in this area would constitute subtjtantiation
of the statement." Further, although the subject's work as it related to the statement was
"minimal, it [did] represent activity in the area." The Committee concluded that the statement
in the proposal, while an exaggeration, did not rise to the level of misconduct in science.

OIG concurred with the Committee's conclusion that the one sentence statement in the subject's
proposal was very general and did not constitute a misappropriation of any ideas that could be
attributed to any specific individual. OIG also accepted the Committee's assessment of the
subject's alleged misrepresentation.

The Committee concluded that the subject had committed no scientific or scholarly misconduct.
However, the Committee recommended that the subject be cautioned that statements "which are
exaggerations and actions such as failure to correct the C.V. information in a timely fashion can

                                1          Page 2 of 3                                    M94- 16
                            CLOSEOUT FOR M-94040016

only undermine personal credibility within and outside the University and [the subject] should
be especially vigilant to avoid such behavior in the future." The investigation committee's
findings were communicated to the subject and adopted by the University.

OIG accepted the University's investigation report as fair and complete and we concluded that
no misconduct in science had occurred. This inquiry was closed and no further action will be
taken.

cc:   Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                         Page 3 of 3
